No. A-- - - -

]n tbe ~upreme QCourt of tbe mlniteb ~tateg
MELINDA MITCHELL, individually and on behalf of a class of all
others similarly situated, HARVEY MITCHELL, individually
and on behalf of a class of all others similarly situated
Applicants,
V.

CITY OF NEW YORK, a municipal entity, NYC POLICE OFFICER
JAMES SCHUESSLER, SHIELD NO. 28718, POLICE OFFICER JOSEPH
BRINADZE, NYPD CAPTAIN JOSEPH GULOTTA, NYPD SERGEANT
DANIELLE ROVENTINI, NYPD LIEUTENANT KATHLEEN CAESAR,
RICHARD ROES 1-50, NEW YORK CITY POLICE SUPERVISORS
AND COMMANDERS, JOHN DOES and 1-50 NEW YORK CITY POLICE
OFFICERS, individually, and in their official capacities, jointly and severally,
Respondents.

PROOF OF SERVICE

STATE OF NEW YORK

)
)ss.:
COUNTY OF NEW YORK )
I, Jeffrey A. Rothman, hereby affirm under the penalties of perjury:
I am not a party to this action, I am over 18 years of age and I am self-employed as an
attorney at 315 Broadway, Suite 200; New York, New York, 10007. I am counsel for the
Applicants in the above-captioned action, and am admitted to practice in the Supreme Court of
the United States.
On June 26, 2019, I both emailed, and mailed by regular mail via the U. S. Postal Service
in a sealed envelope with proper postage affixed thereto, a true copy of the Application for an
Extension of Time Within Which to File a Petition for a Writ of Certiorari to the United States
Court of Appeals for the Second Circuit, to Melanie West, Esq. ; New York City Law
Department, Appeal Division;100 Church Street, New York, NY 10007.

1

Dated :

June 26, 2019
New York, New York

.....-'J
-'

~ffi~ h OTHMAN

_.::.

Counsel of Record
315 Broadway, Suite 200
New York, New York 10007
(212) 227-2980

2

